               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                City Delivery Staffing

                       Audit Report




                                              August 24, 2012

Report Number DR-AR-12-006
                                                                         August 24, 2012

                                                                  City Delivery Staffing

                                                         Report Number DR-AR-12-006




BACKGROUND:
Managing labor costs is critical since        full-time (FT) carrier staffing varied at
city delivery is the largest cost center in   installations, consisting of excesses and
the U.S. Postal Service and the agency        shortages. This occurred because the
does not have, or expect to have,             Postal Service did not establish a
sufficient revenue to cover costs without     maximum number of carriers needed
making fundamental changes.                   per route in the budget process or at
Moreover, with an outlook that does not       each installation based on need.
forecast a significant rebound for mail
volume, the decrease directly affects         These conditions contributed to
carrier workloads. Therefore, having          installations exceeding their budgeted
proper staffing levels at city delivery       overtime by 10.4 million hours.
installations enhances efficient use of       Managing with maximum staffing levels
carrier resources and costs.                  and employing part-time resources
                                              would give the Postal Service options
To develop staffing levels, officials use a   for reducing city delivery labor costs by
budget-based process to determine the         over $116.8 million annually.
number of workhours needed (for route
coverage) for labor costs to match the        WHAT THE OIG RECOMMENDED:
fiscal year budget. In fiscal year 2011,      We recommended the vice president,
the Postal Service employed 183,774           Delivery and Post Office Operations,
city delivery carriers to deliver mail on     balance the number of FT carriers per
145,385 city routes, using over 317.1         route and manage labor costs within
million workhours at the installations        established budgets. We also
reviewed.                                     recommended coordinating with the vice
                                              president, Labor Relations, to continue
Our objective was to evaluate whether         pursuing the ability to increase the
Postal Service city delivery carrier          number of part-time, non-career flexible
staffing was at maximum levels at city        employees in the city letter craft to
delivery installations. The maximum           reduce labor costs.
level represents a staffing ceiling and
does not imply that management needs          Link to review the entire report.
to hire employees but, instead, manage
at an established level.

WHAT THE OIG FOUND:
The Postal Service’s city delivery
August 24, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                             OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – City Delivery Staffing
                           (Report Number DR-AR-12-006)

This report presents the results of our audit of City Delivery Staffing (Project Number
11XG036DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Douglas A. Tulino
    Elizabeth A. Schaefer
    Philip F. Knoll
    Vice Presidents, Area Operations
    Corporate Audit and Response Management
City Delivery Staffing                                                                                             DR-AR-12-006



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

City Delivery Staffing ....................................................................................................... 2

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Office of Inspector General Analysis Results for Full-Time Carriers ........... 9

Appendix C: Office of Inspector General Developed Maximum Staffing Level Model ... 11

Appendix D: Monetary Impact ....................................................................................... 12

Appendix E: Management’s Comments ........................................................................ 14
City Delivery Staffing                                                                                  DR-AR-12-006




Introduction

This report presents the results of our nationwide audit of city delivery staffing (Project
Number 11XG036DR000). Our objective was to evaluate whether U.S. Postal Service
city delivery carrier staffing was at maximum levels at city delivery installations. This is a
self-initiated audit based on concerns received from Postal Service Headquarters
officials during a prior audit.1 It addresses operational and financial risks. See
Appendix A for additional information about this audit.

City delivery is the largest cost center in the Postal Service, using the most workhours
to deliver the mail. Postal Service officials must ensure sufficient staffing levels are in
place to deliver the mail, which is important for achieving operational efficiency and cost
savings. The Postal Service has staffing situations such as excesses, shortages, and
attrition that affect productivity and fiscal year (FY) budgets. The Postal Service has
also identified workforce optimization (adjusting the workforce size and mix) as one of
their 36 initiatives designed to improve its business strategy.2 In FY 2011, the Postal
Service employed 183,774 city delivery carriers to deliver mail on 145,385 city routes,
using over 317.1 million workhours.3

Conclusion

The Postal Service’s city delivery full-time (FT) carrier staffing varied at some
installations with carrier excess and shortages. This occurred because the
Postal Service did not:

   Establish a maximum number of carriers needed per route because of each
    installation’s operational variables.

   Incorporate a maximum number of carriers needed per route in the budget process.

These conditions contributed to installations exceeding their overtime budgets by
10.4 million workhours. Having FT carriers work overtime hours can be costly, but
management can reduce overtime workhours by adjusting and balancing staff and
increasing the use of non-career flexible employees. Managing with maximum staffing
levels and employing part-time (PT) resources would give the Postal Service options to
reduce city delivery costs by over $116.8 million annually.



1
  Headquarters officials stated in their management response to a U.S. Postal Service Office of Inspector General
(OIG) report City Delivery Operations Workforce Planning (Report Number DR-AR-11-001, dated November 22,
2010) that staffing shortages are the primary cause of overtime and that, for a quantitative conclusion, there should
be a comparison of staffing to the number of routes and workload. This audit addresses their concern by identifying
maximum staffing levels, which will result in reassignment opportunities aimed at reducing overtime workhours
generated at units experiencing excess, shortages, and attrition.
2
  “Delivering Results, Innovation, Value, and Efficiency” initiative number eight, Workforce Optimization.
3
  For our review, we excluded installations (and the associated carriers, routes, and workhours) with fewer than 10
routes, or that were part of our office and street efficiency reviews.


                                                           1
City Delivery Staffing                                                                            DR-AR-12-006



City Delivery Staffing

We found that Postal Service city delivery FT carrier staffing levels varied at installations
with either excesses or shortages (see Appendix B). We analyzed FY 2011 city delivery
workhours, staffing, and route data for 2,064 city delivery installations and developed a
carrier per route maximum level/staffing ratio4 to determine whether staffing was
appropriate for the workload, city delivery routes, and other city delivery operations
supporting office and street functions. During FY 2011, the Postal Service’s actual city
delivery staffing level totaled 167,182 carriers for the 2,064 installations reviewed (see
Figure 1 for allocation by carrier type).

              Figure 1. Actual FY 2011 City Delivery Carrier Staffing Levels




              Source: OIG Analysis.

Postal Service regulations5 state that the central organizational thrust is to standardize
structures to the greatest extent possible. It further states that the amount and type of
work are the primary determinants of authorized staffing.6 However, we found that these
conditions occurred because:

   There is no Carrier Maximum Staffing Level per Route. Headquarters officials stated
    that they did not establish a standard staffing ratio for the maximum number of FT
    carriers needed per route for all locations because of the variables associated with
    operations at installations, such as annual leave, sick leave, training, and
    limited/light-duty staff. Therefore, they allowed area officials’ flexibility in determining
    staffing levels per route based on their familiarity with the varying staffing needs of
    their installations. However, we agree that managers need some flexibility in this
    area, but it needs to be part of a sound methodology. As part of our data analysis for
    the 2,064 installations, we allowed a 5 percent increase in workload for all routes to
    account for these operational variables, including other city delivery operations —

4
  We used the FT staffing ratio based on route coverage requirements and guaranteed workhours data to determine
the maximum number of FT carriers needed per route.
5
  Employee and Labor Relations Manual (ELM), Section 121.
6
  ELM, Sections 121 and 125.2.


                                                       2
City Delivery Staffing                                                                               DR-AR-12-006



    such as collections and relays — and FT carriers who are on the employee rolls, but
    not available for work.

   Maximum Carriers per Route Data not Included in Budgeting Tools. To manage
    staffing, area officials use the Budget Management Guide (BMG)7, the Delivery
    Service Staffing Analysis8 tool, the City Delivery Variance (CDV)9 model, and locally
    developed spreadsheets to determine the number of hours needed for labor costs
    based on the fiscal year budget. Headquarters officials felt these tools were
    sufficient for determining staffing needs based on budgeted workhours; however, the
    budgeting tools used to develop annual workhours did not incorporate a maximum
    number of carriers needed per route.

In the analysis of city delivery operations, FT carriers generated 27,380,547 in overtime
workhours in FY 2011. These hours exceeded the annual budgeted overtime hours10 by
10,389,143. Overtime paid to FT carriers is 150 percent of their hourly rate, or a rate of
200 percent for penalty overtime.11 Using our computed maximum level/staffing ratio
and the process shown in Appendix C, we identified the following short- and long-term
actions for reducing FT carrier workhours.

   Reassign 334 FT Carriers Within Assigned Installations (see Appendix D for an
    explanation of our computation). This reduces 458,362 overtime workhours (about
    4 percent) through FT reassignments, by moving excess FT carriers to fill FT
    shortages within assigned installations and balancing the number of FT carriers per
    route. Management can implement these reassignments where cost effective and
    manage based on current local and national labor agreements.

   Use Non-Career Flexible Carriers for Attrition of 3,529 FT Carriers (see Appendix D
    for an explanation of our computation). This reduces workhours by
    3,900,173 through FT employee attrition and use of non-career staff to replace
    productive workhours removed through FT employee attrition over the next 2 years
    or longer.12 Additionally, non-career PT staff members receive a lower hourly rate
    and are not guaranteed the 8 hours per day required for FT carriers. Additionally, FT
    workers receive employee benefits, such as leave, health insurance, and more. PT
    workers, however, receive benefits based on their career designation code.13 This

7
  A budget-based process used to determine the number of workhours for route coverage needed to match total city
delivery labor costs to fiscal year budget.
8
  A tool that computes staffing needs based on routes, leave, and overtime usage at the time of the analysis.
9
  A Function 2B (city delivery) management model that provides complement, workhours, productivity, workload,
routes, and delivery analysis data. The CDV produces a full-time equivalent (FTE) ratio based on earned workload
over the most recent 13-week period, but there is no mandatory requirement to use CDV or the FTE ratio it produces.
10
   FT overtime workhours that exceeded the Postal Service's FY 2011 budgeted overtime of 6.2 percent. For
FY 2011, the Postal Service budgeted 16, 991,404 overtime workhours for city delivery.
11
   FT carriers receive penalty overtime pay for any overtime worked in contravention of the restrictions in Handbook
EL-901, Agreement Between United States Postal Service and National Association of Letter Carriers AFL-CIO,
Article 8, Section 5.F.
12
   6,129,873 workhours removed through FT attrition minus 2,229,700 PT workhours needed to replace productive
workhours removed through FT attrition equals, 3,900,173 net saved FT workhours.
13
   A two-digit number code that indicates the type of position and workforce designation to which an employee is
assigned to allow the proper salary account to be charged.


                                                         3
City Delivery Staffing                                                        DR-AR-12-006



    option is the most cost effective and can be used easily by management nationwide
    where non-carrier staff is available. This is also a concept that the Postal Service
    can use in either a 6- or 5-day delivery operation. FY 2011 PT staffing consisted of
    26,368 employees (PT regular, PT flexible, and transitional) for the locations
    reviewed, which management can use either short-term or long-term based on local
    and national labor agreements.

As significant changes occur in mail volume, managing labor costs is critical to
managing FT carrier overtime costs. Managing with maximum staffing levels and
employing PT resources would give the Postal Service options that would reduce city
delivery costs by over $116.8 million annually. See Appendix D for additional
information about the monetary impact.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Balance the number of full-time carriers per route and manage labor costs within
   established fiscal year budgets.

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the vice president, Labor Relations:

2. Continue pursuing the ability to increase the number of part-time, non-career flexible
   employees at installations nationwide in the city letter carrier craft to reduce labor
   costs.

Management’s Comments

Management generally agreed with the findings, recommendations, and monetary
impact. Management expressed concerns with some of the factors used in our
cost-saving calculations.

For recommendation 1, management generally agreed and stated that, with a national
1.28 carrier-to-route ratio, they feel that they already manage FT carriers to the number
of routes. Management stated that, while it is certainly their goal to standardize
structures to the greatest extent possible, it is not always prudent and local knowledge
at the area and district levels would best determine appropriate carrier-to-route ratios.
Management provided no implementation date due to ongoing labor negotiations and
upcoming arbitration with the union.

For recommendation 2, management agreed and stated that each area already has a
Human Resource Management Board in place that works closely with each district’s
Complement Committee to review all hiring requests for each installation. Management
also stated that this recommendation is their desire and that they commit to continuing
to strive to achieve more flexibility by working with their unions through their Labor



                                            4
City Delivery Staffing                                                         DR-AR-12-006



Relations team. Management provided no implementation date due to ongoing labor
negotiations and upcoming arbitration with the union.

Management stated that they did not agree with the 5 percent allowance we used in our
formula for city delivery carriers performing other duties, such as mailbox collections,
Parcel Post, and relay deliveries, Express Mail® deliveries and intern station runs, router
time, tertiary distribution, and case label work. They stated the hours for these duties
totaled 41,680 and, when divided by 8, it represents 5,210 routes.

Management contested the 6.2 percent overtime rate factor used because overtime has
steadily increased. They stated that their current overtime rate is about 12.85 percent,
due mainly to their anticipation of workload reductions under a 5-day delivery
environment.

Finally, management stated they constantly reassign carriers, guided by their negotiated
agreement with the National Association of Letter Carriers (NALC), which includes bid
management and the Principles of Seniority, Posting, and Reassignments. See
Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

In response to management’s concerns related to some of the factors used in our
calculations, OIG used a 5 percent allowance for workhours expended by city delivery
carriers performing duties other than those for the office and street, such as mailbox
collections, Parcel Post and relay, and Express Mail deliveries. For FY 2011, the total
hours for these other duties represented 3.9 percent of total city delivery workhours. We
increased the allowance for these duties to 5 percent for each of the 2,064 installations
we reviewed. We agree that 5 percent is a macro number, however, by applying this to
each installation, we balanced the usage of these hours among the locations. We
discussed this percentage with management during the exit conference and they
expressed concerns with the percentage, but did not know of an alternative percentage
allowance to use in our formulas. Management stated that, due to the uniqueness of
each unit’s workload, demands vary. The 5,210 routes based on the 41,680 hours
divided by 8 does not account for the uniqueness of each unit’s workload demands
because some units will use more or less than 8 hours.

Regarding the overtime percentage, management stated that their current overtime rate
is about 12.85 percent, due mainly to their anticipation of workload reductions under a
5-day delivery environment. We based the 6.2 percent overtime rate we used in the
cost-savings calculation on the FY 2011 budgeted or planned city delivery overtime
hours used. The rate changes each fiscal year, based on planned workhours. In our
calculation for excess and shortage staff, we used the 6.2 percent overtime rate as the
acceptable overtime rate to benchmark installations’ overtime usage. We claimed no



                                             5
City Delivery Staffing                                                       DR-AR-12-006



savings for overtime hours at installations that met their 6.2 percent planned target. We
believe that increased overtime and reduced workload provides an excellent opportunity
to balance the number of carriers needed per route to help manage workload and labor
costs within established budgets.

The report acknowledged carrier reassignments. Specifically, the report indicated that
reassignments could occur within each assigned installation, where cost effective, and
be managed based on current local and national labor agreements.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are complete. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            6
City Delivery Staffing                                                                            DR-AR-12-006



                               Appendix A: Additional Information

Background

Delivering mail is the Postal Service’s largest operation and it continues to deliver fewer
mailpieces to a growing number of addresses. As this occurs, having proper staffing
levels at city delivery installations enhances efficient use of carrier resources and lowers
costs. These costs include compensation and benefits for the city delivery carrier
workforce, which were about $16.9 billion in FY 2010, $17.1 billion in FY 2011, and are
budgeted at about $16.4 billion for FY 2012. Managing labor costs is critical since city
delivery is the largest cost center and the Postal Service does not have, or expect to
have, sufficient revenue to cover costs without making fundamental changes.14

Postal Service guidance states, “. . . most field operations have common characteristics
that can be assessed based on relative size, complexity, and accountability for the work
to be performed, accommodating the application of standard organizational structure,
and staffing determinations.” It further states, “. . . having established an effective
structure, the organizational design process identifies appropriate staffing levels.” 15
Officials use their BMG budget-based process to determine the number of workhours
for route coverage16 needed to match total city delivery labor costs to fiscal year budget.
They consider the BMG a blueprint tied to salaries and benefits, allowing officials to
make informed decisions regarding workhours and leave. In FY 2011, this resulted in a
total staffing level of 167,182 city delivery carriers for the installations included in our
review.

Objective, Scope, and Methodology

Our objective was to evaluate whether Postal Service city delivery carrier staffing levels
were at their maximum at city delivery installations. To accomplish our objective, we:

    Analyzed FY 2011 city delivery carriers’ performance data from the Enterprise Data
     Warehouse (EDW) and eFlash17 related to carriers, routes, and workhours to
     compute maximum staffing levels and identify reassignment opportunities for 2,064
     city delivery installations.

    Analyzed attrition data for FYs 2009, 2010, and 2011 to identify the FT attrition trend
     over a 3-year period.

    Interviewed Postal Service Headquarters officials on issues related to city delivery
     carrier staffing.



14
   Ensuring a Viable Postal Service for America, An Action Plan for the Future.
15
   ELM, Sections 123.1 and 125.1.
16
   With adjustments for leave, overtime, and employee utilization projections.
17
   A weekly operating reporting management system that combines data from delivery, mail processing, employee
relations, labor relations, and finance.


                                                       7
City Delivery Staffing                                                         DR-AR-12-006



   Visited all seven postal areas and judgmentally selected eight districts and seven
    installations to discuss their staffing levels.

We conducted this performance audit from May 2011 through August 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 9, 2012, and included their
comments where appropriate.

We used computer-processed data from EDW and eFlash. We retrieved data for
FYs 2009, 2010, and 2011, but we did not test controls over these systems; however,
we checked the reasonableness of results by reviewing existing information about the
data and the system that produced them. We also assessed the reliability of data by
interviewing agency officials knowledgeable about the data. We determined that the
data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG conducted one related prior audit report titled City Delivery Operations
Workforce Planning (Report Number DR-AR-11-001, dated November 22, 2010). We
reported that the Postal Service’s workforce planning process for city letter carriers did
not always optimize available resources. Management agreed in principle with the
recommendation but disagreed with the findings and monetary impact of $550,322,614.




                                            8
City Delivery Staffing                                                DR-AR-12-006



 Appendix B: Office of Inspector General Analysis Results for Full-Time Carriers




Source: OIG Analysis.




                                        9
City Delivery Staffing                                                      DR-AR-12-006




Source: OIG Analysis.

As shown in the above table, our analysis results indicated there were 129,534 FT
carriers assigned to the 2,064 installations. These installations had excesses and
shortages compared to their actual FT staffing levels based on our computed maximum.
Specifically, the table gives area and district summary levels to show that the
installations had:

   FT Carrier Excesses – Actual FT staffing levels that exceeded our computed
    maximum levels by 3,863 carriers.

   FT Carrier Shortages – Actual FT staffing levels that were below our computed
    maximum levels by 8,444 carriers.

   FT Overtime Workhours Above Budget – FT carriers generated over 239.2 million
    workhours during FY 2011, including 27.3 million overtime hours. The 27.3 million
    workhours exceeded the Postal Service’s budgeted overtime workhours by about
    10.4 million.

Our use of a maximum level represents a FT staffing ceiling and does not imply that
management needs to hire employees but, instead, manage at an established level.


                                           10
City Delivery Staffing                                              DR-AR-12-006



    Appendix C: Office of Inspector General Developed Maximum Staffing Level
                                      Model




                                       11
City Delivery Staffing                                                                               DR-AR-12-006



                                     Appendix D: Monetary Impact

We estimated the monetary impact by not managing staffing levels based on route
coverage using all resources. We determined the Postal Service could reduce city
delivery labor costs by approximately $116.8 million annually in funds put to better use,
or $233.7 million, over a 2-year period.

              Recommendation                   Impact Category                      Amount
                    1                      Funds Put to Better Use18                $38,659,261
                    2                      Funds Put to Better Use                  195,051,287
                   Total                                                           $233,710,548

Maximum FT Staffing Levels

To determine maximum FT staffing levels for installations:

    We divided the 48 hours of required weekly coverage for a regular route19 by the
     40 guaranteed weekly hours for a FT carrier.20 This resulted in a 1.20 FT staffing
     ratio per route (48 divided by 40 equals 1.20).

    We allowed a 5 percent workload increase for all carriers and compared our
     computed FT maximum levels to FY 2011 actual staffing levels to identify FT
     excesses and shortages. Nationwide, we computed a maximum FT city delivery
     carrier staffing level for each of the 2,064 installations reviewed. A comparative
     analysis of our computed maximum to their actual staffing level indicated that some
     installations exceeded our computed maximum levels by 3,863 FT carriers and
     some installations had shortages totaling 8,444 FT carriers. This resulted in a
     nationwide net shortage of 4,581 FT carriers.

    We considered it a “within postal installation” reassignment opportunity if an
     installation had assigned delivery units with FT excess, as well as assigned delivery
     units with FT shortages. The FT reassignments resulted in savings if (1) the gaining
     delivery unit experienced excessive overtime21 because of their FT shortages and
     had zero unproductive workhours during the fiscal year and (2) if the losing unit was
     using more workhours than allowed (based on required route coverage hours) and
     had excess FT carriers. We identified reassignment opportunities for 334 FT carriers
     at postal installations.




18
   Funds they could use more efficiently by implementing recommended actions.
19
   Eight hours per day multiplied by 6 delivery days per week equals 48 required route coverage hours per week.
20
   Per Handbook EL-901, Article 8, Paragraph 1, the workweek for a FT regular is 40 hours per week.
21
   FT overtime workhours that exceeded the Postal Service's FY 2011 overtime ceiling of 6.2 percent.


                                                        12
City Delivery Staffing                                                        DR-AR-12-006



Funds Put to Better Use

   We calculated funds put to better use for FT reassignment opportunities by applying
    our computed unrecoverable costs for FY 2011 to two future fiscal years using a
    labor rate escalation factor of 1.8 percent.

   We calculated attrition-related funds put to better use for 3,529 FT carriers over
    2 years by using the FY 2011 salaries and benefits labor rate, with an escalation
    factor of 1.8 percent. To determine attrition reductions, we used a cash flow analysis
    based on complement and attrition data for FYs 2009, 2010, and 2011. We used it to
    estimate how many FT city delivery carriers will leave in future years.

   We offset our computed FT attrition savings by the value of PT hours needed to
    replace productive workhours removed via attrition of FT workhours.

   We used the discount rate of 2.6 percent based on the Postal Service’s Decision
    Analysis Report factors (cost of borrowing rate).




                                            13
City Delivery Staffing                                       DR-AR-12-006



                         Appendix E: Management’s Comments




                                        14
City Delivery Staffing        DR-AR-12-006




                         15
City Delivery Staffing        DR-AR-12-006




                         16
City Delivery Staffing        DR-AR-12-006




                         17
